No. 19-

IN THE

,upreme Court of tbe alniteb iptateo
GARMIN USA, INC., ET AL.,
Petitioners,
v.
CELLSPIN SOFT, INC.,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,964 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 23, 2019.

Colin CaseyIogan
Wilson-Epes Printing Co., Inc.

